Case: 1:19-cv-00014-MPM-DAS Doc #: 105 Filed: 11/23/20 1 of 8 PageID #: 1567
7a

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF MISSISSIPPI
ABERDEEN DIVISION

ETHAN HOGGATT, ET AL.

PLAINTIFFS

V.

NO: 1:19CV14-MPM-DAS

ALLSTATE INSURANCE, ET AL.

DEFENDANTS

Order
This matter comes before the court after a November 18, 2020 hearing for Ethan Hoggatt,
Eric Hoggatt, and their attorney Victoria Hoggatt to show cause why they should not be held in
civil contempt for failing to comply with two orders imposing Rule 11 sanctions in the form of
attorneys’ fees: this Court’s August 19, 2019 Order [59] and July 23, 2020 Order [82].
Since the first imposition of sanctions, Victoria Hoggatt has on multiple occasions claimed
that she and her clients cannot afford to comply. At the November 18, 2020 evidentiary hearing,
the Court gave Victoria Hoggatt the opportunity to prove her claim of insolvency. She offered one
piece of evidence: a letter from the Internal Revenue Service (“IRS”) indicating that she, Victoria
Hoggatt, owes the IRS $11,951.04 in taxes. The letter further states that she must pay the
outstanding taxes within thirty days or the IRS will levy her state tax refund or other property.
This Court explained in its October 7, 2020 Order [98] that insolvency—if true—would be
a complete defense against contempt. United States v. Rylander, 460 U.S. 752, 757, 103 S. Ct.
1548, 75 L.Ed.2d 521 (1983). It also stated that the party raising insolvency has the burden of
proof. Id.

Petitioners Appendix B
1

Case: 1:19-cv-00014-MPM-DAS Doc #: 105 Filed: 11/23/20 2 of 8 PageID #: 1568

8a

Victoria Hoggatt has not met her burden. First, she offered no evidence of her, Eric
Hoggatt’s, or Ethan Hoggatt’s income or assets. In fact, she presented no evidence whatsoever
related to Eric or Ethan Hoggatt. Second, the single exhibit she put into evidence was not
persuasive. Owing money to the IRS is not synonymous with insolvency. After all, the
same question that is before the Court now—whether the Hoggatts’ have failed to comply
with the sanctions orders by choice or due to insolvency—has equal force with regard to
Victoria Hoggatt’s failure to pay her taxes. The Court cannot know based on the letter alone
whether she is choosing not to pay her taxes or whether she cannot afford to pay her taxes. The
Court finds that the letter—the only evidence Victoria Hoggatt proffered—does not satisfy her
burden of proof. Therefore, the Court does not find that the Hoggatts are insolvent.

Victoria Hoggatt’s failure to put forth more evidence hints at a deeper issue. By now it is
apparent to the Court that she does not understand the difference between an allegation and
proof. Through the course of these proceedings she has treated the two concepts as
interchangeable at every turn. Having given them a fair hearing, it is now appropriate for the
Court to hold the Hoggatts in civil contempt.
“[T]he power to punish for contempt is inherent in all courts.” Chambers v. NASCO, Inc.,
501 U.S. 32, 44, 111 S. Ct. 2123, 115 L.Ed.2d 27 (1991). Once it finds a party in civil contempt,
a court may sanction “to coerce compliance with a court order or to compensate another party for
the contemnor’s violation.” In re White-Robinson, 777 F.3d 792, 795 (5th Cir. 2015) (quoting In
re Terrebonne Fuel & Lube, Inc., 108 F.3d 609, 612–13 (5th Cir. 1997)).
Here, having found the Hoggatts in civil contempt, the Court imposes the following
sanction. Victoria Hoggatt is barred from making any future filings in the Northern District of
Mississippi without prior approval from the Court. The sanction will cease when the Hoggatts

2

Case: 1:19-cv-00014-MPM-DAS Doc #: 105 Filed: 11/23/20 3 of 8 PageID #: 1569

9a

comply with the Court’s August 19, 2019 Order and July 23, 2020 Order. In addition, to make sure
that this Court’s orders are enforced, the August 19, 2019 Order and the July 23, 2020 Order will
be reduced to judgments against Victoria Hoggatt, Ethan Hoggatt, and Eric Hoggatt.
I.

Bar on Future Filings
A district court may, as a civil contempt sanction, bar a vexatious litigant from filing any

future lawsuit in the district. Barnes v. United States, 800 F. App’x 284, at *286 (5th Cir. 2020).
Courts have imposed this sanction against litigants who fail to comply with Rule 11 sanctions.
Dobbs v. Delta Corr. Facility, No. 4:07cv191, 2008 WL 4280026 (N.D. Miss. Sept. 16,
2008). The decision to impose such a sanction must be supported by the contemnor’s
“history as a vexatious litigant.” Barnes, 800 F. App’x at *286.
“In devising sanctions, ‘the district court must impose the least severe sanction adequate
to accomplish the purposes of Rule 11.’” Hampton v. Henderson, 14 F.3d 53 (5th Cir.
1994) (quoting Akin v. Q-L Invs., 959 F.2d 521, 535 (5th Cir. 1992)). In that vein, courts that
have barred future filings in a district have limited the bar to civil cases. See id. Additionally,
courts have typically created an exception to their sanction and have allowed contemnors to file
a complaint if they first receive permission from the Court. See id. Finally, to ensure that the
contemnor has the ability to completely purge the sanction, which is necessary for the contempt
to be characterized as civil and not criminal contempt, courts have ordered that the bar on future
filings ceases if and when the contemnor complies with the court order that warranted civil
contempt in the first place. See Gelabert v. Lynaugh, 894 F.2d 746, 748 (5th Cir. 1990).
Victoria Hoggatt is a vexatious litigant. At the outset of these proceedings she instigated
a discovery dispute by requesting documents directly from Allstate instead of going through
formal discovery. Allstate informed Victoria Hoggatt
that she needed to go through formal
3
discovery.

Case: 1:19-cv-00014-MPM-DAS Doc #: 105 Filed: 11/23/20 4 of 8 PageID #: 1570

10a

Instead of making a formal request, Victoria Hoggatt responded by having Eric
Hoggatt send a letter and a criminal affidavit to Mississippi Insurance Commissioner Mike
Cheney, United States Attorney for the Northern District of Mississippi Chad Lamar, and
District Attorney for the Fifth Circuit of Mississippi John Weddle. Eric and Ethan Hoggatt
signed the criminal affidavit. The enclosed letter explicitly stated that Victoria Hoggatt prepared
the letter and affidavit. The affidavit accused Allstate, two Allstate employees, Allstate’s
attorneys, and the attorneys’ law firm of violating the Fair Credit Reporting Act, violating the
Sarbanes-Oxley Act, intentionally destroying evidence, obstructing justice, and of wire fraud.
The affidavit also showed that Victoria Hoggatt had been secretly recording phone calls with
Allstate employees despite the fact that Allstate was represented by counsel.
Defendants filed a motion for sanctions.
Next, still without making any formal discovery requests, Victoria Hoggatt filed two nearly
identical motions to amend her complaint. She sought to add Allstate’s counsel as defendants in
the action before this Court, apparently to pursue a claim against them for obstructing justice.
A Magistrate Judge found that Victoria Hoggatt’s discovery dispute had unnecessarily
protracted the litigation. Therefore, the Magistrate Judge entered the first sanctions order against
the Hoggatts.
Victoria Hoggatt quickly earned another sanctions order when she filed two motions in this
Court challenging the Magistrate Judge’s sanctions order. The Court denied both motions and
agreed that the discovery dispute and related filings unnecessarily protracted the proceedings.
Thus, this Court awarded Allstate reasonable attorneys’ fees incurred in responding to both
motions.
4

11a

Case: 1:19-cv-00014-MPM-DAS Doc #: 105 Filed: 11/23/20 5 of 8 PageID #: 1571

That same day, in a separate order, this Court dismissed the Hoggatts’ complaint for the
failure to state a claim [83]. In response, Victoria Hoggatt filed a motion under Fed. R. Civ. P. 60
[85]. Once again, Victoria Hoggatt’s Rule 60 motion warranted sanctions. She used Rule 60 not
as intended by the Federal Rules of Civil Procedure, but as a vehicle to rehash
dismissed arguments, and also to raise arguments that were plainly inapposite and entirely
unsupported by the law.
Victoria Hoggatt’s Rule 60 motion read much like her prior motions. Indeed, she
has established a pattern of rearguing the substance of her claims every time she files a
motion. No matter the stage of the litigation, no matter the title on her motion, and no matter
what the opposing side has or has not argued, Victoria Hoggatt rehashes the same merits
arguments, typically with little or no citations to law. For instance, even though her claims had
already been dismissed, she reiterated the same merits arguments when she responded to
Defendants’ motion for contempt and when she filed a motion to stay the enforcement of
sanctions.
Victoria Hoggatt has demonstrated another alarming pattern. She neither understands nor
respects the distinction between criminal and civil matters. Not only did she distribute the
criminal affidavit mentioned above, but, as she informed the Court at the November 18, 2020
evidentiary hearing, she has now also filed a complaint against Defendants with the
Federal Trade Commission. It appears that Victoria Hoggatt will not accept that her grievances
lack merit.
5

12a

Case: 1:19-cv-00014-MPM-DAS Doc #: 105 Filed: 11/23/20 6 of 8 PageID #: 1572

basis in fact or law. Therefore, this Court finds that Victoria Hoggatt is a vexatious litigant
and that barring her from future filings in this district is warranted.
Pursuant to this Court’s October 7, 2020 Order, Victoria Hoggatt is already barred
II. Sanctions Judgment
from making any additional filings in the instant matter. Now, Victoria Hoggatt is barred from
At the November 18, 2020 evidentiary hearing, the Court asked Victoria Hoggatt: “[D]o
filing any pleadings in this or any other civil matter without prior permission from this Court.

you have any intention of paying the sanctions that have . . . been awarded against you?” She
responded: “I certainly would if the Court said you must pay them today and I would pay it.”
Because it seems that Victoria Hoggatt does not understand that the Court has already ordered her
to pay sanctions, the Court will now make it emphatically clear by reducing the orders to
judgments.
A district courts enjoys broad discretion to enforce its sanctions orders. See, e.g., In re
United Mkts. Int’l Inc., 24 F.3d 650, 656 (5th Cir. 1994). Relevant here, “a sanctions award may
be reduced to a judgment if the sanctioned party has failed to pay the sanctions despite being
provided with the opportunity to do so.” Mass. Mutual Life Ins. Co. v. Williamson, Nos. 4:15cv166
& 4:15cv184, 2019 WL 7195318, at *3 (N.D. Miss. Dec. 26, 2019) (citing Moore v. Harris, 600
F. App’x 201, 204–05 (5th Cir. 2005)). Here, the Hoggatts have had ample opportunity to pay the
sanctions orders and have failed to do so. Therefore, this Court’s August 19, 2019 Order and its
July 23, 2020 Order will be reduced to judgments.
When imposing Rule 11 sanctions, it is up to the court whether to impose the sanctions
solely on counsel, solely on the clients, or both. 5A. Wright, A. Miller & M. Kane, Federal
Practice and Procedure § 1336.2(4th ed.). Here, the August 19, 2019 Order was entered against
6

13a

Case: 1:19-cv-00014-MPM-DAS Doc #: 105 Filed: 11/23/20 7 of 8 PageID #: 1573

Victoria Hoggatt and her clients jointly. The July 23, 2020 Order was entered “consistent with
[the] decision of the Magistrate Judge.” Therefore, keeping in line with the orders, the judgments
entered on this date will be entered against Ethan Hoggatt, Eric Hoggatt, and Victoria Hoggatt,
jointly and severally.
Pursuant to the August 19, 2019 Order, judgment will be entered against Victoria
Hoggatt, Ethan Hoggatt, and Eric Hoggatt, jointly and severally, in the amount of $6,282.50.
Pursuant to the July 23, 2020 Order, judgment will be entered against Victoria Hoggatt, Ethan
Hoggatt, and Eric Hoggatt, jointly and severally, in the amount of $1,802.50. This Court
imposed additional sanctions against the Hoggatts in its October 7, 2020 Order, but because
that order succeeded Allstate’s motion for contempt, and because it was not a subject of the
November 18, 2020 evidentiary hearing, it will not be reduced to a judgment at this time.
By reducing the sanctions orders to judgments, the Court ensures that Allstate will be
able to use the tools made available under Mississippi law for enforcing judgments. See Miss. R.
Civ. P. 69; First Miss. Nat’l Bank v. KLH Indus., Inc., 457 So. 2d 1333 (Miss. 1984).
Conclusion
Victoria Hoggatt is HENCEFORTH PROHIBITED from filing any civil action in this
district without prior permission of the Court. The prohibition will cease when (1) the Hoggatts
comply with this Court’s August 19, 2019 Order [59] and its July 23, 2020 Order [82] imposing
sanctions, and (2) Victoria Hoggatt files a sworn affidavit with this Court stating that the
Hoggatts have satisfied the orders.
Additionally, the Court will enter a separate judgment this date, pursuant to Fed. R. Civ.
P. 58, reducing its August 19, 2019 Order [59] into a judgment against Victoria Hoggatt,
Ethan Hoggatt, and Eric Hoggatt, jointly and severally,
in the amount of $6,282.50.
7

14a

Case: 1:19-cv-00014-MPM-DAS Doc #: 105 Filed: 11/23/20 8 of 8 PageID #: 1574
SO ORDERED, this the 23rd day of November, 2020.
Likewise, the Court will enter a second separate judgment this date, pursuant to Fed. R.
Civ. P. 58, reducing its July 23, 2020 Order [82] into a judgment against Victoria Hoggatt, Ethan
Hoggatt, and Eric Hoggatt, jointly and severally, in the amount of $1,802.50.

/s/ Michael P. Mills
UNITED STATES DISTRICT JUDGE
NORTHERN DISTRICT OF MISSISSIPPI

8

